No.
IN THE
SUPREME COURT OF THE UNTIED STATES
BRANDON S. LAVERGNE
Petitioner
vs.
N. BURL CAIN, WARDEN, ETAL
Respondent(s)
PROOF OF SERVICE
I, BRANDON S. LAVERGNE
date, 'Art ay

<3<R

M

, do swear or declare that on this
, 2020, as required by Supreme Court Rule 291 have

served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party's counsel, and on every other person required to be served, by
depositing and envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by delivery
to athird-party commercial carrierfor delivery within 3 calender days.

RECEIVED
MAR 16 ?n?0
8.

u.s.

'i

